      Statement of Gregory H. Friedman

              Inspector General

            Department of Energy



                 Before the

  Subcommittee on Government Management,
        Organization and Procurement

                   of the

Committee on Oversight and Government Reform

        U.S. House of Representatives




                              FOR RELEASE ON DELIVERY
                                                 2:00 PM
                                            July 18, 2007
Mr. Chairman and members of the Subcommittee, I am pleased to be here today at your

request to testify on issues pertaining to contract management at the Department of

Energy.



More than any other civilian agency in the Federal government, the Department of

Energy places significant reliance on contractors. There are about 15,000 Federal

employees at the Department. In contrast, there are approximately 100,000 contract

employees plus a significant number of subcontract employees, who operate the

Department’s National Laboratories, production facilities, and environmental remediation

projects. The operations performed by contractors consume at least three-quarters of the

Department’s budget. As we have reported annually, managing this type of operation is

one of the most pressing management challenges facing the Department. This challenge

permeates almost every aspect of the Department’s programmatic and administrative

activities, including the National Nuclear Security Administration.



The Department’s dependence on contractors can be traced back to the origins of the

agency and the Manhattan Project. Since that time, this unique partnership has allowed

flexibility in the accomplishment of highly technical and scientific endeavors. Through

this arrangement, the Department and its contractors have played a key role in developing

and sustaining the Nation’s nuclear weapons stockpile, uncovering the complexities of

the human genome, advancing the capabilities of scientific computing, and developing

treatments for cancer and other diseases.




                                                                                           1
Despite these successes, contract administration at the Department has not been without

its problems. As a member of Congress recently remarked, “the agency has a long record

of inadequate management and oversight of contracts… Although [the Department] has

made some oversight improvements…problems [continue] to exist in contract

management at the Department of Energy.”



I would like to take a few minutes today to explore some of the issues related to the

Department’s administration of its contracts. Specifically, I will discuss the origins of the

Department’s contracting structure, the problems the agency has faced in contract

administration, and the actions the Department needs to take to effectively and efficiently

manage its contract operations.



CONTRACTING STRUCTURE


The Department of Energy contracting structure dates back to the 1940s. To address a

wartime challenge, the Federal government sought the best scientific and technical

expertise from industry and academia in developing the atomic bomb to meet the

geopolitical threats facing the Nation. In undertaking this task, the Department’s

predecessor agencies provided some of the country’s leading firms and academic

institutions, through a cost-reimbursable contracting arrangement, with the land, facilities

and operating resources necessary to solve this critically important assignment.



Many elements of that structure remain in place today as essential components of the

Department’s operations. Although the contractual documents that define the



                                                                                           2
Department’s relationship with its contractors have become more detailed and the fees

paid to its contractors have increased substantially, the basic structure remains largely

unchanged. The agency’s major facilities are wholly-owned and financed by the

government, but these facilities are operated by contractors. The government generally

indemnifies the contractors operating the Department’s facilities for the activities

performed at these locations.



The Department’s arrangement with its contractors, however, continues to evolve.

Within the last ten years, the agency has instituted two major modifications to its

contracting practices. First, the Department has instituted performance-based

contracting. Under this type of arrangement, the payment of fees is tied to the

accomplishment of specific tasks and projects. Second, largely associated with

congressional interest, the Department is in the process of recompeting virtually all of its

major facility contracts. Some contract operations, like the Los Alamos National

Laboratory, had been run by the same contractor for over 50 years. We believe that these

changes, which have been expedited by Secretary Bodman, should enhance contract

operations in the Department of Energy.



CONTRACT ADMINISTRATION CHALLENGE

Although the agency has taken several positive steps in recent years, our work has

documented deficiencies in the way the Department administers its contracts. These

deficiencies have led to significant security lapses and wasteful spending practices. For

example, my office has identified contract activities that were not conducted in an




                                                                                            3
economic and efficient manner, and health and security issues that were not given the

attention they deserve. Most importantly, contractors were not always held accountable

for their actions.



In preparing for this testimony, we were informed by the Subcommittee of its interest in

agency contracts with Wackenhut Services, Inc., the Bechtel Corporation, and the

University of California, three of the Department’s most prominent contractors. I would

like to address three recent reports issued by my office pertaining to contractual issues

specifically involving these institutions. These reports are representative of the

Department’s continuing contract administration challenge.


                      Selected Controls over Classified Information
                          at the Los Alamos National Laboratory

        The Office of Inspector General conducted a special review, which revealed a
        serious breakdown in security controls at the Los Alamos National Laboratory,
        one of the premier contractor-operated laboratories in the nuclear weapons
        complex. We found that, in many cases, the Laboratory, currently operated for
        the Department by Los Alamos National Security, LLC (a private limited liability
        company formed by the University of California, Bechtel, BWX Technologies, and
        Washington Group International), did not enforce existing safeguards or provide
        adequate attention and emphasis necessary to ensure a secure cyber security
        environment. Specifically, in a number of areas, security policy was non-existent,
        applied inconsistently, or not followed. In short, the findings of our report raised
        serious concerns about the Laboratory’s ability to protect both classified and
        sensitive information systems.

        Contributing to the situation were shortcomings in Federal management of
        laboratory operations. These included inadequate Federal review and inspection
        of the Laboratory’s classified information systems. For example, National
        Nuclear Security Administration officials told us that they placed a great deal of
        emphasis on reviewing security plans and accrediting systems, but they did not
        perform physical inspections to validate that the plans were accurate and were
        actually being carried out as planned. As a consequence, Federal officials were
        not able to ensure that security controls were properly designed and put in place




                                                                                            4
in a manner that would effectively mitigate security risks at one of the nation’s
premier national weapons laboratories.

              Quality Assurance Standards for the Control Network
                          at the Waste Treatment Plant

In one of the largest and most important of environmental remediation projects in
the world, the Department of Energy is constructing a Waste Treatment Plant at
its Hanford, Washington, site. The $12.2 billion Plant is designed to treat and
prepare 53 million gallons of radioactive and chemically hazardous waste for
disposal. We recently completed a review of the computerized integrated control
network that is being installed to monitor key processes of the Plant. Our review
disclosed that the control system acquired by Bechtel National, the Department’s
contractor at the Hanford site, did not meet applicable quality assurance
standards. Given this situation, we concluded that the Department could not be
sure that the Plant will perform as needed, thereby potentially impacting the
schedule, cost and safety of this $12 billion project.

We noted a number of problems in the process used by Bechtel to procure the
control system. Specifically, Bechtel did not perform a supplier evaluation or
consistently define quality assurance standards that were to be used for the
control system of the Plant. We concluded, as well, that Department officials had
not taken necessary steps to assure that Bechtel’s actions were consistent with
agency quality assurance standards. In fact, the Department was unaware of the
nuclear quality assurance standards issue prior to our review. In responding to
our report on this matter, the Department indicated that it planned to provide
more rigorous oversight of the contractor’s procurement process and it would
ensure that the control network will meet current nuclear safety and quality
assurance standards.


                 Protective Force Performance Test Improprieties

Deficiencies in the management of the guard forces at the Department’s major
facilities have also raised concerns in recent years. For example, on June 26,
2003, a test of the performance capabilities of the protective force at the
Department’s Y-12 National Security Complex in Oak Ridge, Tennessee, was
conducted. The guard force at this site is charged with protecting one of the most
sensitive facilities in the Nation’s nuclear weapons complex. In response to an
allegation, the Office of Inspector General examined the facts surrounding the
June 2003 test as well as whether there had been a pattern over time of site
security personnel compromising protective force testing.

Our review confirmed that the subject performance test may have been
compromised. Several individuals told us that controlled information was shared
with security police officers prior to their participation in the tests. We were also



                                                                                    5
       informed that this practice spanned from the mid-1980s to the present. While
       several different contractors have held the protective force contract during this
       period, the contractor responsible for the protective force at the time of the June
       2003 test was Wackenhut Services, Inc. Our review further disclosed that in
       addition to participating in the actual performance tests, contractor personnel
       also participated in the detailed planning and development of the tests – from our
       perspective a clear conflict of interest.

       To address this situation, we recommended that the Department be more
       proactive in its management of the security contract at the Y-12 facility and
       consider the information disclosed during our review in making its award fee
       determination on the protective force contract.


As these reports illustrate, effective contract administration is not only key to the

economic and efficient operation of the Department’s programs and activities, but it is

also central in helping to prevent security lapses as well as to address critical safety and

health issues.


CONTINUING CONTRACT ADMINISTRATION CHALLENGES


While a number of relevant changes are in process, the Department needs to do a better

job administering its numerous contracts. As we have testified previously, the

Department should:



       •   Ensure that its contracts are structured properly and that competition is

           maximized;

       •   Provide the technical guidance as well as the human, financial, and related

           resources necessary for contractors to complete their critical work

           assignments successfully;




                                                                                               6
        •   Establish realistic expectations of desired outcomes and achievable contractor

            metrics;

        •   Effectively monitor contractor performance; and

        •   Hold individuals and entities accountable when expectations are not met.



In our judgment, emphasis on contractor accountability is particularly important. Given

the expanding number, scope, and complexity of the Department’s contracts, holding

contractors strictly accountable for their performance is not an easy task. Nonetheless,

contracting officials need to be more aggressive in redirecting work assignments as

appropriate, making fee determination evaluations, making cost allowability

determinations, and ultimately, pursuing suspensions and debarments. Each of these

tools can and should be used in a tailored fashion to ensure that the government and the

taxpayer receive value for their expenditures. With respect to debarment, the Federal

government has promulgated regulations that prohibit it from contracting with, or

extending certain benefits to, any company or person whom the government deems to be

"nonresponsible." The Department of Energy exercises this authority and currently has

45 individuals and companies on its debarment, or excluded parties, list. Each one of

these actions resulted from investigations by the Office of Inspector General.



In addition to these mechanisms, to effectively structure, monitor and enforce contracts,

the Department of Energy in particular, and the Federal government in general, needs

personnel experienced in contract management to effectively carry out agency missions.

This has become more challenging in recent years as the number and value of contracts




                                                                                            7
has increased, while the number of personnel available to administer these contracts has

remained relatively constant. For example, over the last eight years, the number of

contract specialists at the Department has decreased slightly while the value of funds

provided to contractors has increased by 40 percent. We are currently evaluating this

very issue in a separate review. Further, as we look into the future, many of the

individuals performing contract management functions at the Department are

approaching retirement age. Therefore, the Department will need to develop human

resource strategies to meet this continuing challenge.


CONCLUSION


In order to achieve the goals of the Department in areas of national security, science, and

advanced technology, as well as to operate as an efficient steward of taxpayer dollars, we

believe that the Department must place greater emphasis on efforts to adopt and maintain

sound contract administration practices. Furthermore, as the Department explores new

governance models, it is imperative that fundamental oversight principles are followed as

a means of ensuring accountability and protecting against waste and mismanagement.



Mr. Chairman and members of the subcommittee, this concludes my statement. I will be

pleased to answer any questions you may have.




                                                                                           8
